Docket No. 19-_______
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL HUNTER; MARTIN CASSIDY; CARL CARSON,

Petitioners,

v.
RANDY COLE; KAREN COLE; RYAN COLE,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS OF THE FIFTH CIRCUIT
CERTIFICATE OF SERVICE
I hereby certify that on this 5th day of November, 2019, I served a copy of the
foregoing Unopposed Application for Extension of Time by e-mail and first-class
mail on the following counsel:
R. Jack Ayres, Jr.
Christopher S. Ayres
AYRES LAW OFFICE, P.C.
5924 Royal Lane, Suite 150
Dallas, Texas 75230
rjayres@ayreslawoffice.com
csayres@ayreslawoffice.com

Amir H. Ali
D.C. Bar No. 1019681
RODERICK & SOLANGE
MacArthur Justice Center
777 6th Street NW, 11th Floor
Washington, D.C. 20001
Amir.ali@macarthurjustice.org

Attorneys for Respondent
I further certify that all parties required to be served have been served.
William S. Helfand
Norman Ray Giles
LEWIS, BRISBOIS, BISGAARD &
SMITH, LLP
24 Greenway Plaza, Suite 1400
Houston, Texas 77046
(713) 659-6767

James T. Jeffrey, Jr.
LAW OFFICES OF JIM JEFFREY
3200 W. Arkansas Lane
Arlington, Texas 76016
(817) 261-3200

Attorneys for Petitioner

